TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Trends in Compliance Activities Through
                               Fiscal Year 2013



                                     September 12, 2014

                             Reference Number: 2014-30-062




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


TRENDS IN COMPLIANCE ACTIVITIES                       FY 2013, the IRS continued implementing
THROUGH FISCAL YEAR 2013                              tax-related portions of the Affordable Care Act
                                                      and the Foreign Account Tax Compliance Act.

Highlights                                            Despite these challenges, total dollars received
                                                      and collected (gross collections) increased for
                                                      the third straight year to $2.9 trillion (a
Final Report issued on                                13 percent increase) in FY 2013. Enforcement
September 12, 2014                                    revenue collected also increased from
                                                      $50.2 billion in FY 2012 to $53.3 billion in
Highlights of Reference Number: 2014-30-062           FY 2013 due, in part, to several large Appeals
to the Internal Revenue Service Deputy                case settlements. Tax return filings continued to
Commissioner for Services and Enforcement.            increase as did gross accounts receivable,
                                                      which increased to $400 billion.
IMPACT ON TAXPAYERS
                                                      The FY 2013 Collection function activities
This report is a compilation of statistical           showed mixed results. The amount collected on
information reported by the IRS. The data             delinquent accounts by both the Automated
presented in this report provide taxpayers and        Collection System and Field Collection
stakeholders with information about how the IRS       decreased. The Collection function continued to
focuses its compliance resources and the impact       receive more delinquent accounts than it closed,
of those resources on revenue and compliance          although the number of delinquent accounts in
over time.                                            the Collection queue decreased due, in part, to
WHY TIGTA DID THE AUDIT                               the removal of millions of accounts that were not
                                                      resolved. Fewer Notices of Federal Tax Lien
TIGTA conducts this review annually in                were filed, fewer levies were issued, and fewer
response to continuing stakeholder interest in        seizures were made. Meanwhile, taxpayers’ use
the analysis and trending of Collection and           of payment options such as offers in
Examination function activities. The overall          compromise increased.
objective was to provide various statistical
information regarding Collection and                  The Examination function conducted 6 percent
Examination function activities.                      fewer examinations in FY 2013 than in FY 2012.
                                                      The decline in examinations occurred across all
WHAT TIGTA FOUND                                      tax return types, including individual,
                                                      corporation, S corporation, and partnership.
Between Fiscal Years (FY) 2010 and 2013, the          Seventy percent of return examinations were
IRS’s appropriated budget decreased                   conducted via correspondence. While the
7.4 percent, from $12.1 billion to $11.2 billion      number of tax return examinations declined,
after sequestration. Sequestration had a              productivity indicators were mixed. The dollar
significant impact on the IRS’s FY 2013 budget.       yield per hour for most return types increased.
These budget reductions resulted in decreases         However, the no-change rates increased for
in the number of employees available to provide       some types of examinations (corporations and
services to taxpayers and enforce the tax laws.       partnerships), while it decreased for others
Specifically, the number of full-time equivalents     (individuals and S corporations).
decreased by nearly 9 percent, from 94,618 at
                                                      WHAT TIGTA RECOMMENDED
the end of FY 2010 to 86,310 at the end of
FY 2013, including a 4 percent reduction              TIGTA made no recommendations in this report.
between FYs 2012 and 2013. The number of              IRS officials were provided an opportunity to
enforcement personnel decreased by more than          review the draft report and did not provide any
1,000 employees during FY 2013.                       comments.
As resources decreased, the IRS’s
responsibilities have expanded. For example, in
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 12, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Compliance Activities Through
                             Fiscal Year 2013 (Audit # 201430011)

 This report presents the results of our review to provide various statistical information regarding
 Collection and Examination function activities. This review is included in our Fiscal Year 2014
 Annual Audit Plan and addresses the major management challenge of Tax Compliance Initiatives.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 officials an opportunity to review the draft report. They did not provide us with any report
 comments.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report. Please contact me or Bryce Kisler, Acting Assistant Inspector General for Audit
 (Compliance and Enforcement Operations), if you have any questions.
                           Trends in Compliance Activities Through Fiscal Year 2013




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Challenges Affecting the Internal Revenue Service During
          Fiscal Year 2013 ........................................................................................... Page 2
          Enforcement Revenue and Gross Collections Increased
          During Fiscal Year 2013 ............................................................................... Page 6
          Collection Function Compliance Activities Showed Mixed
          Results ........................................................................................................... Page 7
          Examination Function Compliance Activities Showed
          Mixed Results ............................................................................................... Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Detailed Charts of Statistical Information ........................... Page 22
          Appendix V – Prior Treasury Inspector General for Tax Administration
          Compliance Trends Reports .......................................................................... Page 51
          Appendix VI – Glossary of Terms ................................................................ Page 52
        Trends in Compliance Activities Through Fiscal Year 2013




                     Abbreviations

ACA            Patient Protection and Affordable Care Act of 2010
ACS            Automated Collection System
FY             Fiscal Year
IRS            Internal Revenue Service
NFTL           Notice of Federal Tax Lien
TDA            Taxpayer Delinquent Account
TDI            Taxpayer Delinquency Investigation
TIGTA          Treasury Inspector General for Tax Administration
                        Trends in Compliance Activities Through Fiscal Year 2013




                                              Background

Given the responsibility for administration of the Nation’s tax code, the Internal Revenue Service
(IRS) must consider its mission in planning and executing various legislative changes as well as
in evaluating its performance and the results of its programs. The IRS’s mission is to:
           Provide America’s taxpayers top-quality service by helping them understand and meet
           their tax responsibilities and enforce the law with integrity and fairness to all.

Each year,1 the Treasury Inspector General for Tax Administration (TIGTA) conducts this
review of nationwide compliance statistics for the IRS’s Collection and Examination function
activities. Our data analyses were performed in TIGTA’s Philadelphia, Pennsylvania, office
during the period April through June 2014. Nationwide data from IRS management information
systems were used during our review. Due to time and resource constraints, we did not audit the
IRS systems to validate the accuracy and reliability of that information. We did not assess
internal controls because doing so was not applicable within the context of our objective. Our
analyses were limited to identifying changes and trends in IRS data.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. Detailed charts and tables referred to
in the body of this report are included in Appendix IV. A glossary of terms is included in
Appendix VI.
Most of the calculations throughout the report and Appendix IV are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report update prior TIGTA reports on
compliance trends. Appendix V presents a list of those reports.




1
    TIGTA did not perform this review in Fiscal Year 2012.
                                                                                                 Page 1
                       Trends in Compliance Activities Through Fiscal Year 2013




                                      Results of Review

Challenges Affecting the Internal Revenue Service During
Fiscal Year 2013
In Fiscal Year (FY) 2013, the IRS continued working to fulfill its mission with declining
resources. Between FYs 2010 and 2013, the IRS operated under multiple continuing resolutions.
Although the continuing resolutions allow for agencies to continue operating, they do so in a
more restricted manner than under regular appropriations. Additionally, sequestration, which
went into effect in FY 2013, significantly reduced the IRS’s budget, which created additional
management challenges for the IRS in achieving its mission.
These budget reductions have resulted in decreases in the number of employees available to
provide services to taxpayers and those needed to enforce the tax laws. During FY 2013, the
decline in personnel contributed to a decrease in the number of examinations and an increase in
the number of delinquent taxes being assigned to an inactive status. However, enforcement
revenue increased during FY 2013 due, in part, to several large appeal case settlements.

Resources continued to decrease in FY 2013
The IRS’s appropriated budget decreased in FY 2013 to $11.2 billion. While the IRS’s FY 2014
appropriated budget increased to $11.3 billion, it is still 8 percent less than the $12.1 billion
appropriated in FY 2010. The President’s and IRS Oversight Board’s FY 2015 budget requests
for the IRS included increases of 11 percent and 20 percent, respectively.
IRS appropriations for FY 2013 are categorized in the following core areas: Taxpayer Services,
Enforcement, Operations Support, and Business Systems Modernization. Figure 1 shows the
amount of appropriation by core area.2




2
  Taxpayer Services includes processing tax returns and related documents and assistance for taxpayers in filing
returns and paying taxes. Enforcement includes examination of tax returns, collection of delinquent balances, and
the administrative and judicial settlement of taxpayer appeals of examination findings. Operations Support includes
administrative services, policy management, and IRS-wide support. Business Systems Modernization includes
capital asset acquisitions of information technology systems to modernize key tax administration systems.
                                                                                                           Page 2
                         Trends in Compliance Activities Through Fiscal Year 2013




                                 Figure 1: Fiscal Year 2013 Funding by
                                    Core Appropriation (in Billions)




                              Source: TIGTA analysis of IRS budget appropriations.

Decreases in funding continue to affect the number of IRS employees available to meet the IRS
mission. The number of IRS full-time equivalents decreased from 94,618 at the end of FY 2010
to 86,310 at the end of FY 2013. Full-time equivalents have been reduced by nearly 9 percent
over this time period, including a 4 percent reduction between FYs 2012 and 2013.
Figure 2 shows that gains in enforcement personnel3 (revenue officers, revenue agents, and tax
compliance officers) in prior years have been more than offset since FY 2011 by declines in this
area. Hiring initiatives during FYs 2009 and 2010 led to the largest increase in the number of
IRS enforcement personnel since FY 1999.




3
    Collection and Examination functions staff located in field offices, excluding management and overhead staff.
                                                                                                              Page 3
                       Trends in Compliance Activities Through Fiscal Year 2013




                       Figure 2: Enforcement Personnel by Fiscal Year




     Source: TIGTA analysis of Collection Activity Report 5000-2 and Table 37 Examination Time Reports.

Enforcement personnel decreased almost 8 percent from FY 2012 to FY 2013. Since FY 2010,
the combined number of enforcement personnel has decreased by 20 percent, from 17,206 in
FY 2010 to 13,696 at the end of FY 2013.

Resources were used to implement new tax legislation during FY 2013
As IRS resources have decreased, its responsibilities have expanded. In FY 2013, the IRS was
responsible for implementing tax-related portions of the Foreign Account Tax Compliance Act4
and the Patient Protection and Affordable Care Act of 20105 (ACA). The Foreign Account Tax
Compliance Act requires U.S. taxpayers as well as foreign banks, investment funds, and
insurance companies to report on the offshore accounts worth more than $50,000 that are held by
U.S. taxpayers. In August 2013, the IRS implemented a secure online registration system for
financial institutions to register with the IRS under the Foreign Account Tax Compliance Act.
The ACA seeks to provide more Americans with access to affordable health care by creating a
new Health Insurance Marketplace, enforcing patient/consumer protections, and providing
Government subsidies for people who cannot afford insurance. During FY 2013, the IRS
continued to implement changes necessary to meet its responsibilities associated with the ACA.
TIGTA reported6 in FY 2014 that the IRS continues to move forward in this respect by revising
or developing new tax forms, instructions, and publications; training IRS employees; revising
internal processes and procedures; issuing revenue procedures and regulations; developing a
customer service strategy; and providing outreach to taxpayers and tax professionals. In

4
  Pub. L. No. 111-147, Subtitle A, 124 Stat 71, *96-116 (2010) (codified in scattered sections of 26 U.S.C.).
5
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
6
  TIGTA, Ref. No. 2014-43-006, Affordable Care Act: The Customer Service Strategy Sufficiently Addresses Tax
Provisions; However, Changes in Implementation Will Create Challenges (Dec. 2013).
                                                                                                           Page 4
                       Trends in Compliance Activities Through Fiscal Year 2013




addition, in order to mitigate implementation changes that may occur to ACA tax provisions, the
IRS has developed an oversight and monitoring process to identify ACA-related actions that may
affect its operations. Figure 3 shows the effective legislation dates for ACA provisions affecting
the IRS.
                             Figure 3: Number of Affordable Care Act
                                     Provisions by Fiscal Year




                    Source: TIGTA analysis of the ACA Provisions.

In FY 2013, the IRS successfully implemented a new ACA-related computer system to support
the health insurance marketplace. The system analyzes prior year tax return filings, provides
verification of income levels and filing status, and determines if a taxpayer is claimed as a
dependent by another taxpayer. During FY 2013, the IRS responded to more than 5 million
information requests from the health insurance marketplace to verify income and family size.

Tax return filings have increased during FY 2013
Overall, tax return filings increased by more than 3.1 million in FY 2013, from 186.7 million in
FY 2012 to 189.9 million in FY 2013. This is the highest number of tax returns ever filed. Since
Calendar Year 2009, the number of returns filed has increased by more than 3 percent.7
The number of returns electronically filed also continues to increase. The IRS reported that in
FY 2013 nearly 73 percent of major returns were filed electronically. This is up from FY 2012,


7
 Filings data are from the IRS Data Book, which presents examination coverage and provides return filings on a
calendar year basis because examination activity is generally associated with returns filed in the previous calendar
year.
                                                                                                              Page 5
                       Trends in Compliance Activities Through Fiscal Year 2013




when the percentage of electronically filed returns filed was reported at 71 percent. The
electronic filing increase in FY 2013 also included increases in both home computer filings
(3.9 percent increase) and electronically filed business returns (3.5 percent increase).

Enforcement Revenue and Gross Collections Increased During
Fiscal Year 2013
Since FY 1990, the Government Accountability Office has included enforcement of tax laws as
one of the 30 high-risk areas in the Federal Government.8 The Government Accountability
Office states:
        Given that the Tax Gap has been persistent and dispersed across different types of taxes
        and taxpayers, coupled with tax code complexity and a globalizing economy, reducing
        the Tax Gap will require applying multiple strategies over a sustained period of time.

For Tax Year 2001, the IRS estimated the Gross Tax Gap at $345 billion. In FY 2012, the IRS
estimated the Gross Tax Gap for Tax Year 2006 to be $450 billion, which is an increase of
30 percent. The IRS attributed the increase to the growth in total tax liabilities between Tax
Years 2001 and 2006 and not to any significant change in taxpayer compliance rates.
Enforcement revenue collected increased $3.2 billion9 (6 percent) from $50.2 billion in FY 2012
to $53.3 billion in FY 2013.10 Despite the increase, enforcement revenue for FY 2013 was less
than the enforcement revenue collected during two of the past four fiscal years. Furthermore,
$2.6 billion (81 percent) of the $3.2 billion increase in FY 2013 was due to a number of cases in
appeals or litigation that were worked in prior years.
The portion of enforcement revenue collected attributed to the Collection program11 increased by
more than 3 percent, from $30.4 billion in FY 2012 to $31.4 billion in FY 2013. However, the
Examination program’s portion of enforcement revenue collected decreased by almost 4 percent,
from $10.2 billion in FY 2012 to $9.8 billion in FY 2013, which is the lowest amount in the past
five years.12
Figure 4 shows that the total dollars received and collected (gross collections) increased for the
third straight year. FY 2013 represents the largest increase in gross collections in the past



8
  Government Accountability Office, GAO-13-283, HIGH RISK SERIES: An Update (Feb. 2013).
9
  Due to rounding, the total of the detailed changes do not sum to the total difference in Total Enforcement Revenue
from FY 2012 to FY 2013.
10
   See Appendix IV, Figure 2.
11
   The enforcement revenue collected for all of the Collection program statuses including notice, installment
agreement, offers in compromise, Collection queue, Field Collection, Automated Collection System, and
Compliance Services Collection Operations.
12
   In addition to amounts attributed to the Collection and Examination programs, total enforcement revenue includes
amounts attributed to the Appeals and Information Returns Processing programs.
                                                                                                            Page 6
                        Trends in Compliance Activities Through Fiscal Year 2013




10 years. Specifically, gross collections increased by 13 percent in FY 2013, to $2.9 trillion,
which is more than $100 billion higher than the prior high of $2.7 trillion in FY 2008.
                             Figure 4: Gross Collections by Fiscal Year




                Source: TIGTA analysis of the IRS Data Book.

Collection Function Compliance Activities Showed Mixed Results
IRS Oversight Board surveys of taxpayer attitudes have shown that taxpayers believe it is very
important that the IRS ensures that all taxpayers pay their taxes. In FY 2013, the public was firm
in its belief that no segment of taxpayers should be exempt from vigorous IRS enforcement of
the tax laws.
Collection is an important aspect of maintaining a voluntary tax compliance system. During
FYs 2009 and 2010, the IRS hired more than 1,500 revenue officers. However, since then, the
number of revenue officers has decreased 23 percent, from 4,068 in FY 2010 to 3,140 at the end
of FY 2013.13 In addition, the number of contact representatives within the Automated
Collection System (ACS) has decreased 39 percent, from 2,824 in FY 2010 to 1,730 in FY 2013.
Total dollars collected on Taxpayer Delinquent Accounts (TDA) by the ACS and Field
Collection (Field) decreased again in FY 2013. Closures of fully paid TDAs decreased slightly,
and fewer Taxpayer Delinquency Investigations (TDI) were closed for the second straight year.
The number of taxpayers with TDAs and TDIs in the Collection queue decreased in FY 2013,
which was largely due to the increase in the number of TDAs and TDIs shelved during FY 2013.


13
     See Appendix IV, Figure 6.
                                                                                            Page 7
                       Trends in Compliance Activities Through Fiscal Year 2013




New TDA receipts continued to outpace closures. The IRS also reduced its use of Notices of
Federal Tax Lien (NFTL), levies, and seizures. Considering the trend in decreasing resources
and increasing TDAs, the Collection function will need to achieve efficiency and productivity
gains to ensure that the Tax Gap does not widen.

TDA collections
The decreases in TDA collections were driven by the Field. After increasing for three straight
fiscal years, Field TDA collections decreased more than 5 percent to $3.1 billion in FY 2013.
Collections on TDAs by the ACS increased 1 percent, to $2.8 billion during FY 2013. Figure 5
shows that both the ACS and the Field continued to make the majority of collections within the
first year of receipt.14 The majority of collections were made within the first 25 weeks
(six months).15
      Figure 5: Percentage of Dollars Collected during FY 2013 by the Number
             of Weeks the TDA Was Assigned to the ACS and the Field




     Source: IRS Collection Activity Report 5000-2.

Compared with FY 2012, the number of TDA receipts decreased, while the number of TDA
closures increased in FY 2013. However, the IRS continues to receive more new TDAs than it
closes. TDA closures, as a percentage of TDA receipts, also decreased in FY 2013 to 76 percent,
down from 80 percent in both FYs 2011 and 2012.16




14
   Time in function does not include time that each tax module may have spent in another IRS function.
15
   See Appendix IV, Figures 9 and 10.
16
   See Appendix IV, Figure 16 and 18.
                                                                                                         Page 8
                      Trends in Compliance Activities Through Fiscal Year 2013




Accounts receivable
The amount of gross accounts receivable increased 2 percent (to $400 billion) in FY 2013. This
is the smallest percentage increase since FY 2002. While the accounts receivable has grown in
each of the past five years, the percentage of these increases has been smaller in recent years.17
The smaller increases in the accounts receivable could be attributed in part to increases in gross
collections. Gross collections have increased in each of the last three fiscal years, including an
increase of 13 percent from FY 2012 to FY 2013.18
Broken down by source of assessment, the Substitute for Return Program portion has increased
to more than 32 percent of accounts receivable in FY 2013, an increase from 29 percent of
accounts receivable in FY 2009. The portions attributed to the remaining programs either
decreased or increased no more than 2 percent since FY 2009.19 Figure 6 shows the accounts
receivable by source of assessment.
                          Figure 6: Fiscal Year 2013 Percentage of
                       Accounts Receivable by Source of Assessment




                      Source: TIGTA analysis of data received from the Office of the Chief
                      Financial Officer. SFR = Substitute for Return. TFRP = Trust Fund
                      Recovery Penalty.




17
   See Appendix IV, Figure 2.
18
   See Appendix IV, Figure 1.
19
   See Appendix IV, Figure 3.
                                                                                             Page 9
                       Trends in Compliance Activities Through Fiscal Year 2013




TDI closures
The number of TDI tax periods closed because delinquent tax returns were received by the IRS
decreased by 15 percent in FY 2013.20 This decrease follows a 23 percent decrease in FY 2012.
The decreases were likely the result of fewer TDI issuances over the past two fiscal years.

The Collection queue
The number of taxpayers with TDAs in the Collection queue (hereafter referred to as the queue)
decreased in FY 2013 for the first time since FY 2010. At the end of FY 2013, there were
approximately 848,000 taxpayers with TDAs in the queue, which is more than 25 percent less
than the number of taxpayers with TDAs in the queue at the end of FY 2012 (more than
1.1 million).21
In addition, the dollar value of the taxes owed in the queue decreased by nearly 21 percent.
This is the first decrease in the past five years. However, the $49.9 billion owed at the end of
FY 2013 is still 16 percent more than the $43.2 billion owed at the beginning of FY 2009.
Although many of the cases in the queue may be assigned to be worked, a significant number
may be sent only an annual reminder notice in an attempt
to resolve the delinquency.22
                                                                            TDIs and TDAs shelved or
Much of the decrease in queue inventory was due to large         surveyed from the queue
increases in shelved and surveyed cases that were removed       increased 132 percent and
from the queue without being resolved. The number of              78 percent, respectively
TDI tax periods shelved or surveyed from the queue                    during FY 2013.
increased 132 percent, from 258,000 in FY 2012 to
597,000 in FY 2013. The number of TDA tax periods
shelved and surveyed increased 78 percent, from 667,000 in FY 2012 to 1.2 million in FY 2013.
The $10.8 billion in delinquencies that were shelved or surveyed during FY 2013 was 82 percent
more than the dollar value shelved or surveyed during FY 2012.
The increase in shelved and surveyed cases was largely attributable to a combination of changes
in case routing criteria and a lack of resources available to work the cases within the Field. In
FY 2011, the IRS amended the dollar criteria used to route cases to the ACS, which resulted in
more cases being routed to the queue during FYs 2011 and 2012. Because cases are generally
shelved when they remain in the queue for 52 weeks without assignment, this influx of cases
awaiting assignment and subsequently not being assigned resulted in an increase in cases shelved
(inactive status).


20
   See Appendix IV, Figure 15.
21
   See Appendix IV, Figure 11.
22
   Before an account gets assigned to the queue, the IRS has already sent notices to the taxpayer about the
delinquency. After the notice process, some cases go directly to the queue, while others are worked in the ACS.
Those cases in the queue that are not assigned may not receive contact aside from annual reminder notices.
                                                                                                          Page 10
                       Trends in Compliance Activities Through Fiscal Year 2013




The use of NFTLs, levies, and seizures
The use of NFTLs, levies, and seizures all decreased in FY 2013.23 The overall use of NFTLs
decreased 15 percent in FY 2013, with NFTLs filed by the ACS and the Field decreasing
17 percent and 14 percent, respectively. This represents the fewest number of NFTLs filed
since FY 2005.
Recent changes in NFTL filing determination thresholds are the most likely cause for the
decrease in this enforcement action. The Field increased the threshold for NFTL filing
determinations from $5,000 to $10,000, and the ACS increased its threshold for systemic
NFTL filing to $25,000. While the threshold increases were made to help individuals and
small businesses meet their tax obligations and reduce taxpayer burden, risk remains in
potentially leaving the Government’s interest in taxpayer assets to secure payment of tax debt
unprotected from claims of other third-party creditors.
The IRS’s use of levies has also decreased for the second straight year. Total levies issued in
FY 2013 decreased by more than 37 percent from almost 3 million to approximately 1.9 million.
The number of levies issued by the ACS declined 46 percent to 1.2 million in FY 2013. The
Field also decreased its use of levies, from 714,000 to 639,000 (11 percent).
The IRS continues to use seizures in minimal numbers. During FY 2013, seizures decreased by
more than 25 percent (to 547). This is the fewest number of seizures since FY 2005, when
512 seizures were issued. The number of seizures still remains far below the number prior to
implementation of the IRS Restructuring and Reform Act of 1998.24

The use of payment options
When taxpayers cannot fully pay their tax obligations on time, the IRS offers alternate payment
arrangements, such as installment agreements and offers in compromise. While taxpayers must
meet certain criteria to participate in these options, the IRS recently expanded the criteria as part
of their Fresh Start Initiatives to allow more taxpayers to participate. These Fresh Start
Initiatives, implemented beginning in February 2011, were meant to help struggling taxpayers
get a fresh start with their tax liabilities by providing more payment options to taxpayers.
The number of offers in compromise has increased in each of the past five years. Accepted
offers increased 31 percent, from 24,000 in FY 2012 to 31,000 in FY 2013.25 Accepted offers
are up nearly 190 percent since FY 2009. The dollar value of accepted offers increased more
than 50 percent from FYs 2010 to 2012 but did not change materially between FYs 2012 and
2013.


23
   See Appendix IV, Figures 20, 21, and 22.
24
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
25
   See Appendix IV, Figure 24.
                                                                                                               Page 11
                        Trends in Compliance Activities Through Fiscal Year 2013




The total number of installment agreements has decreased in each of the past two years with
3.2 million and 3.0 million taxpayers entering installment agreements during FYs 2012 and
2013, respectively. Although the number of taxpayers establishing installment agreements
decreased, the dollar value of assessments associated with these taxpayers increased each year
from FYs 2009 through 2012, when it peaked at $24.8 billion.26 In FY 2013, the dollar value of
assessments associated with these taxpayers decreased to $24.6 billion. In addition, the number
of taxpayers establishing direct debit installment agreements increased more than 19 percent (to
435,000) in FY 2013, and the dollar value of these new direct debit installment agreements
increased by more than 50 percent.
Collections made through installment agreements increased in each of the past four years.
During FY 2013, more than $11.1 billion was collected from installment agreements, which is
55 percent more than the $7.1 billion collected in FY 2009. Of this amount, $2.2 billion was
collected from direct debit installment agreements, which is 218 percent more than the
$688 million collected during FY 2009.

Examination Function Compliance Activities Showed Mixed Results
Examination is also an important aspect of maintaining tax compliance. IRS Oversight Board
studies of taxpayer attitudes have shown that the fear of examination is a major factor in
influencing taxpayers to report taxes honestly. In FY 2013, 60 percent of taxpayers surveyed
cited the fear of examination as a factor that influenced their compliance. This is a decrease
compared to FY 2012, when 63 percent of taxpayers responded similarly. In addition, during
FY 2012, 11 percent of taxpayers surveyed believed it was acceptable to cheat on their income
taxes. In FY 2013, the percentage of taxpayers who believed this increased to 12 percent.27
After hiring almost 3,300 revenue agents and tax compliance officers in FYs 2009 and 2010,
there have been fewer than 200 hired in these positions over the last three fiscal years, which is
the fewest number of new hires in more than 10 years. The reduced hiring has contributed to a
20 percent reduction in the overall number of Examination function personnel who conduct
examinations of tax returns.
From FYs 2010 to 2013, the number of:
          Revenue agents decreased 19 percent (from 11,648 to 9,451).
          Tax compliance officers decreased 25 percent (from 1,390 to 1,045).




26
     See Appendix IV, Figure 23.
27
     IRS Oversight Board 2013 Taxpayer Attitude Survey (Feb. 2014).
                                                                                            Page 12
                        Trends in Compliance Activities Through Fiscal Year 2013




Due to reductions over the past several years, there were fewer employees conducting
examinations than in any of the past five years and the fewest number of employees since
FY 2003.28

Overall, the number of tax returns examined decreased, and most examinations
were conducted via correspondence
A decrease in the number of examinations of tax returns coincided with the reduction in
examination employees. In FY 2013, the IRS conducted 6 percent fewer examinations than
conducted in FY 2012. The decline in examinations occurred across all tax return types.
Figure 7 shows that the total number of field examinations declined for the second straight year
after reaching a five-year high in FY 2011. The decrease in employees beginning in FY 2010
continued to affect the number of field examinations in FY 2013.
                        Figure 7: Percentage Change in the Number of
                  Field Examiners and Examinations Since Fiscal Year 2009




             Source: IRS Data Book and Examination Table 37.

IRS examinations can range from the issuance of an IRS notice asking for clarification of a
single tax return item that appears to be incorrect (correspondence examination) to a face-to-face
interview and review of the taxpayer’s records. Differentiating these two types of contact
between the IRS and taxpayers is important when reviewing examination coverage rates, and
caution should be taken in combining statistics from the various Examination function programs.
Face-to-face examinations are generally more comprehensive and time-consuming for the IRS as
well as taxpayers and typically result in higher dollar adjustments to the tax amounts. During
FY 2013, 70 percent of all examinations were conducted via correspondence.



28
     See Appendix IV, Figure 25.
                                                                                          Page 13
                       Trends in Compliance Activities Through Fiscal Year 2013




In addition to correspondence and face-to-face examinations, the IRS also uses several computer
matching and automated error checking routines to verify the accuracy of tax returns.29 These
routines often identify adjustments to tax liabilities. However, these adjustments are not
included in the traditional “audit rates” and are not reported separately as enforcement efforts.
During FY 2013, the IRS continued to experience decreases in certain types of contacts
associated with taxpayer math errors and underreporting.

Examination rates for the various types of tax returns decreased during FY 2013
The following paragraphs summarize examination coverage for various types of tax returns:
        Individual Income Tax Return Examinations – The number of individual income tax
         return examinations decreased for the third straight year. The IRS examined
         1,404,931 (one of every 104) tax returns in FY 2013. This is approximately 11 percent
         fewer examinations than the 1,581,394 reported in FY 2010 (one of every 90).30
         During FY 2013, 81 percent of the examinations of individuals were performed by
         correspondence.31 One of every 541 individual income tax returns filed received a
         face-to-face examination, which is a 4 percent decrease compared with FY 2012, when
         one of every 522 individual returns received a face-to-face examination.
        Corporate Income Tax Return Examinations – Fewer corporate tax returns were
         examined during FY 2013 than any of the past five years.32 The number of examinations
         decreased in FY 2013 to a five-year low of 27,480 (one of every 70 returns filed).33 Also
         in FY 2013, there were fewer corporate tax filings than in any of the last five years
         (1,912,105).
         Over the past five years, the number of corporate tax returns examined with assets of less
         than $10 million decreased 4 percent, from 18,298 in FY 2009 to 17,604 in FY 2013.
         These examinations decreased by 17 percent in the past year alone, from the five-year
         high in FY 2012 of 21,164. As examinations of these returns have reached lows, filings
         have also dropped over the past five years. Corporate tax return filings with assets of less
         than $10 million have decreased nearly 14 percent since FY 2009, with a 2 percent
         decrease since FY 2012.




29
   See Appendix IV, Figures 49 and 50.
30
   This includes examinations conducted by employees located in field offices and campuses. See Appendix IV,
Figures 33 and 34.
31
   We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
32
   This information excludes returns for foreign corporations, S corporations, and cooperative associations.
33
   See Appendix IV, Figures 33, 39 and 40 for coverage by size of corporation.
                                                                                                           Page 14
                       Trends in Compliance Activities Through Fiscal Year 2013




        S Corporation Tax Return Examinations – The number of S corporation examinations
         decreased 14 percent from the 21,658 examinations conducted in FY 2012. However, the
         number of S corporation examinations in FY 2013 (18,670) was nearly 7 percent more
         than the number examined in FY 2009 (17,455). In FY 2012, one of every 206
         S corporation returns filed were examined, compared with one of every 240 filed in
         FY 2013.34 S corporation return filings increased for the fifth straight year, reaching
         4.5 million in FY 2013.
        Partnership Return Examinations – The number of partnership returns examined
         decreased 11 percent to 14,870 in FY 2013 after increasing to 16,691 in FY 2012. One of
         every 211 returns filed in FY 2012 were examined. This decreased to one of every 239 in
         FY 2013.35 Partnership return filings increased to 3.6 million in FY 2013.
        Other Tax Type Examinations (fiduciary, employment, excise, estate, and gift taxes) –
         The overall number of examinations in these five classes was 87,836 for FY 2013.
         This is a 13 percent decrease in examinations from FY 2012, when the number of
         examinations was more than 101,000.
         Each of the five other tax type returns experienced decreases in the number of
         examinations between FYs 2012 and 2013. Excise return examinations decreased by
         25 percent and estate return examinations decreased by 14 percent. During FY 2012,
         only one of the five other tax types (estate) experienced decreases in the number of
         examinations.36 The return filings increased for all five of these other tax type returns in
         FY 2013. Estate return filings and excise return filings increased 123 percent and
         52 percent, respectively.

Examination function productivity indicators have mixed results
Figure 8 shows the dollar yield per hour for FYs 2009 through 2013 for revenue agents and
tax compliance officers. The dollar yield per hour for revenue agent examinations of individuals
decreased 10 percent between FYs 2012 and 2013. The dollar yield per hour for revenue agent
examinations of corporations increased 58 percent between FYs 2012 and 2013. The dollar yield
per hour for tax compliance officer examinations of individual returns has remained relatively
unchanged over the past five years. Between FYs 2012 and 2013, the dollar yield per hour for
examinations of individuals by tax compliance auditors decreased by 2 percent.




34
   See Appendix IV, Figures 33 and 42.
35
   See Appendix IV, Figures 33 and 43.
36
   The decrease in Estate examinations during FY 2012 coincided with a 46 percent decrease in filings during
FY 2011.
                                                                                                          Page 15
                        Trends in Compliance Activities Through Fiscal Year 2013




                      Figure 8: Examination Function Dollar Yield per Hour




                  Source: TIGTA analysis of Examination Table 37.

The dollar yield per hour for the examination of corporate tax returns by revenue agents
increased for the first time in five years but is 16 percent less than the dollar yield per hour in
FY 2009. The increase in this indicator is due to a 74 percent increase in the dollars per return
between FYs 2012 and 2013.37
The dollar yield per hour for the examination of individual returns examined by revenue agents
continued to decrease for the fifth straight year. This coincided with an 18 percent decrease in
the dollars per return during FY 2013. Alternately, the dollar yield per hour attributable to tax
compliance officer examinations of individual returns decreased without a corresponding
decrease in the dollars per return.38
In addition to the above return types, the dollars examined of partnership, S corporation, and
large corporations (those with assets of more than $10 million) drove the examination
productivity. While there were fewer examinations of these returns in general, increases in the
dollars per return in all of these categories resulted in increases in their associated dollar yields
per hour.
Another important measure of audit productivity is the percentage of audited tax returns that
result in recommended adjustments to the tax return. The IRS associates a high percentage of
audited tax returns that result in recommended adjustments with greater audit productivity, while
audits that result in no change are considered unproductive. The no-change rates for:
          Revenue agent examinations of individual tax returns reached a five-year low in FY 2011
           (8 percent). Since then, the no-change rate gradually increased to 10 percent in FY 2013.


37
     See Appendix IV, Figure 28.
38
     See Appendix IV, Figures 27 and 30.
                                                                                               Page 16
                        Trends in Compliance Activities Through Fiscal Year 2013




          Tax compliance officer examinations of individual tax returns continued to remain at
           either 9 or 10 percent between FYs 2009 and 2013.
          Revenue agent examinations of corporate tax returns increased to 29 percent39 during
           FY 2013.
          Revenue agent examinations of partnership returns increased during FY 2013 to
           47 percent. The no-change rate increased in FY 2010 (44 percent) and FY 2011
           (48 percent) and decreased in FY 2012 to 44 percent.
          Revenue agent examinations of S corporations continue to decrease from 39 percent in
           FY 2011 to 33 percent in FY 2012 and 31 percent in FY 2013.

Conclusion
The IRS faced many challenges during FY 2013, including implementing provisions related to
new tax legislation and operating with fewer resources and employees. Several indicators
showed the negative effect of these challenges, including a continued increase in accounts
receivable, an increase in the number of cases that might never be worked, and a decrease in the
overall number of examinations of tax returns. While some indicators are positive, including
increases in gross collections, enforcement revenue, and dollar yield per hour on examinations of
corporations, the negative trends continue to be cause for concern, especially given that
diminished enforcement could also affect voluntary compliance over time.




39
     See Appendix IV, Figure 31.
                                                                                            Page 17
                       Trends in Compliance Activities Through Fiscal Year 2013




                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide various statistical information regarding
Collection and Examination function activities. To accomplish our objective, we:
I.       Obtained and analyzed information relating to compliance activities.
         A. Obtained and analyzed Collection function data.1 This includes but is not limited to:
             1. Staffing.
             2. Direct and indirect time.
             3. TDAs and TDIs.
             4. Enforcement actions (NFTLs, levies, and seizures).
         B. Obtained and analyzed Examination function data. This includes but is not limited to:
             1. Staffing.
             2. Direct and indirect time.
             3. Coverage of individual and business tax returns compared to the number of
                returns filed for each type of return.
             4. Productivity results for individual and business tax returns.
         C. Obtained and analyzed other compliance related data. This includes but is not limited
            to:
             1. Enforcement revenue.
             2. Gross collections and accounts receivable.
             3. Math error, Automated Underreporter, and Automated Substitute for Return
                cases.
         D. Reviewed applicable TIGTA and Government Accountability Office reports for
            relevant information.
         E. Assessed the impact of new legislation and budget issues on compliance activities.
         F. Discussed aberrations in the data with applicable IRS personnel.

1
 Due to time and resource constraints, we did not audit the IRS systems to validate the accuracy and reliability of
data.
                                                                                                            Page 18
                   Trends in Compliance Activities Through Fiscal Year 2013




Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective. Our analyses
were limited to identifying changes and trends in data prepared and reported by the IRS.




                                                                                        Page 19
                  Trends in Compliance Activities Through Fiscal Year 2013




                                                                             Appendix II

                 Major Contributors to This Report

Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Curtis Kirschner, Lead Auditor
Brian G. Foltz, Auditor




                                                                                     Page 20
                 Trends in Compliance Activities Through Fiscal Year 2013




                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                             Page 21
                          Trends in Compliance Activities Through Fiscal Year 2013




                                                                                                               Appendix IV

              Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax .............................................................. Page 25
Figure 2 – Amount of Enforcement Revenue Collected Compared to
           Gross Accounts Receivable ........................................................................ Page 25
Figure 3 – Gross Accounts Receivable by Source of Assessment ............................... Page 26
Figure 4 – Total Amount Collected During Notice Status........................................... Page 26
Figure 5 – Amount Collected During Notice Status for Selected Sources
           of Assessment ............................................................................................. Page 27
Figure 6 – Number of Revenue Officers in the Field Assigned
           Delinquent Cases at the End of Each Fiscal Year ...................................... Page 27
Figure 7 – Average Dollars Collected per Staff Year on TDA Tax Periods
           by the Field ................................................................................................. Page 28
Figure 8 – Net Amounts Collected on TDA Tax Periods by the Field
           and the ACS ................................................................................................ Page 28
Figure 9 – Total Dollars Collected by Number of Weeks Assigned to the
           ACS ............................................................................................................ Page 29
Figure 10 – Total Dollars Collected by Number of Weeks Assigned to the
            Field ............................................................................................................ Page 29
Figure 11 – Taxpayers With TDAs and TDIs Maintained in the Queue ....................... Page 30
Figure 12 – TDA and TDI Tax Periods Shelved or Surveyed ....................................... Page 30
Figure 13 – Gap Between TDI Tax Period Receipts and Closures, Including
            TDI Tax Period Closures As a Percentage of Receipts .............................. Page 31
Figure 14 – Number of TDI Tax Periods Closed by Collection Functions ................... Page 31
Figure 15 – Number of TDI Tax Periods Closed by Collection Functions
            With Receipt of a Delinquent Tax Return .................................................. Page 32
Figure 16 – Gap Between TDA Tax Period Receipts and Closures, Including
            TDA Closures As a Percentage of Receipts ............................................... Page 32
Figure 17 – Number of Taxpayers and Amount Owed in Queue Inventory.................. Page 33


                                                                                                                            Page 22
                         Trends in Compliance Activities Through Fiscal Year 2013




Figure 18 – Number of TDA Tax Periods Closed by Collection Functions,
            Excluding Shelved Accounts ...................................................................... Page 33
Figure 19 – Number of TDA Tax Periods Closed With Full Payment by
            Collection Functions ................................................................................... Page 34
Figure 20 – Number of NFTLs Filed by the Field and the ACS ................................... Page 34
Figure 21 – Number of Levies Issued by the Field and the ACS .................................. Page 35
Figure 22 – Number of Seizures .................................................................................... Page 35
Figure 23 – Amounts of Unpaid Assessments Entering Installment Agreements
            and Collected Through Installment Agreements ........................................ Page 36
Figure 24 – Number and Value of Accepted Offers in Compromise ............................ Page 36
Figure 25 – Number of Examination Function Staff Conducting Examinations
            of Tax Returns at the End of Each Fiscal Year .......................................... Page 37
Figure 26 – Percentage Change From FY 2009 of All Tax Returns
            Filed and Examined .................................................................................... Page 37
Figure 27 – Revenue Agent Results on Forms 1040, U.S. Individual Income
            Tax Return, Percentage Change From FY 2009 ......................................... Page 38
Figure 28 – Revenue Agent Results on Corporate Income Tax Returns,
            Percentage Change From FY 2009 ............................................................. Page 38
Figure 29 – Revenue Agent Results on Other Types of Tax Returns, Percentage
            Change From FY 2009 ............................................................................... Page 39
Figure 30 – Tax Compliance Officer Results on Forms 1040, Percentage
            Change From FY 2009 ............................................................................... Page 39
Figure 31 – Revenue Agent and Tax Compliance Officer No-Change Rates
            for Various Types of Tax Returns .............................................................. Page 40
Figure 32 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence .......................................................................................... Page 40
Figure 33 – Numbers and Percentages of Individual and Business Tax Returns
            Examined .................................................................................................... Page 41
Figure 34 – Percentage Change From FY 2009 of Forms 1040 Filed
            and Examined ............................................................................................. Page 42
Figure 35 – Number of Forms 1040 Filed and Examined ............................................. Page 42



                                                                                                                       Page 23
                        Trends in Compliance Activities Through Fiscal Year 2013




Figure 36 – Percentage Change From FY 2009 of Corporate
            Income Tax Returns Filed and Examined .................................................. Page 43
Figure 37 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Less Than $10 Million ................................. Page 43
Figure 38 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Greater ............................... Page 44
Figure 39 – Number of Tax Returns Filed and Examined –
            Corporations With Assets of Less Than $10 Million ................................. Page 44
Figure 40 – Number of Tax Returns Filed and Examined –
            Corporations With Assets of $10 Million and Greater ............................... Page 45
Figure 41 – Percentage Change From FY 2009 of Forms 1120S
            Filed and Examined .................................................................................... Page 45
Figure 42 – Number of Forms 1120S Filed and Examined ........................................... Page 46
Figure 43 – Number of Tax Returns Filed and Examined – Partnerships ..................... Page 46
Figure 44 – Number of Tax Returns Filed and Examined – Fiduciaries ....................... Page 47
Figure 45 – Number of Tax Returns Filed and Examined – Employment Tax ............. Page 47
Figure 46 – Number of Tax Returns Filed and Examined – Excise Tax ....................... Page 48
Figure 47 – Number of Tax Returns Filed and Examined – Estates.............................. Page 48
Figure 48 – Number of Tax Returns Filed and Examined – Gift Tax ........................... Page 49
Figure 49 – Number of Other Compliance Contacts on Forms 1040 ............................ Page 49
Figure 50 – Other Compliance Contacts – Forms 1040 Coverage Rate ........................ Page 50




                                                                                                                  Page 24
                       Trends in Compliance Activities Through Fiscal Year 2013




                              Figure 1: Gross Collections by Type of Tax1




                Source: TIGTA analysis of the IRS Data Book.



                        Figure 2: Amount of Enforcement Revenue Collected
                              Compared to Gross Accounts Receivable




                 Source: Office of Research, Analysis, and Statistics and Chief Financial Officer.



1
 Estate and trust income tax for FY 2013 equaled approximately $81 billion. The total line includes excise, estate,
and gift taxes, not just individual, corporate, and employment taxes.
                                                                                                           Page 25
              Trends in Compliance Activities Through Fiscal Year 2013




         Figure 3: Gross Accounts Receivable by Source of Assessment




Source: TIGTA analysis of data received from the Office of the Chief Financial Officer.
SFR = Substitute for Return. TFRP = Trust Fund Recovery Penalty.



             Figure 4: Total Amount Collected During Notice Status




 Source: Collection Activity Report 5000-2/242.



                                                                                          Page 26
              Trends in Compliance Activities Through Fiscal Year 2013




                 Figure 5: Amount Collected During Notice Status
                        for Selected Sources of Assessment




Source: Collection Activity Report 5000-2/242. SFR = Substitute for Return



           Figure 6: Number of Revenue Officers in the Field Assigned
                Delinquent Cases at the End of Each Fiscal Year




   Source: Collection Activity Report 5000-23.

                                                                             Page 27
                       Trends in Compliance Activities Through Fiscal Year 2013




                         Figure 7: Average Dollars Collected Per Staff Year
                                  on TDA Tax Periods by the Field




              Source: TIGTA analysis of Collection Activity Reports 5000-2 and 5000-23.



                                Figure 8: Net Amounts Collected on
                              TDA Tax Periods by the Field and the ACS 2




            Source: Collection Activity Report 5000-2.


2
 The dollars collected shown in Figure 8 are the net amounts collected after adjustments, such as refunds, are
considered. The amounts in Figures 9 and 10 are larger because they show the gross amounts collected.
                                                                                                           Page 28
        Trends in Compliance Activities Through Fiscal Year 2013




                   Figure 9: Total Dollars Collected by
                  Number of Weeks Assigned to the ACS




Source: Collection Activity Report 5000-2.



                  Figure 10: Total Dollars Collected by
                 Number of Weeks Assigned to the Field




 Source: Collection Activity Report 5000-2.

                                                             Page 29
                      Trends in Compliance Activities Through Fiscal Year 2013




                                  Figure 11: Taxpayers With TDAs
                                 and TDIs Maintained in the Queue 3




                Source: Collection Activity Reports 5000-2 and 5000-4.



                   Figure 12: TDA and TDI Tax Periods Shelved or Surveyed




              Source: TIGTA analysis of Collection Activity Reports 5000-2 and 5000-4.


3
 In FYs 2010 and 2013, the IRS removed from the queue large numbers of TDA cases that were considered to be
potentially less productive than other queue inventory (see Figure 12). The decrease in TDAs can be at least
partially attributed to removals of these less productive cases.
                                                                                                     Page 30
                      Trends in Compliance Activities Through Fiscal Year 2013




                Figure 13: Gap Between TDI Tax Period Receipts 4 and Closures,
                Including TDI Tax Period Closures As a Percentage of Receipts 5




               Source: TIGTA analysis of Collection Activity Report 5000-4.



            Figure 14: Number of TDI Tax Periods Closed by Collection Functions




               Source: TIGTA analysis of Collection Activity Report 5000-4. CSCO = Compliance
               Services Collection Operations.


4
  Collection Activity Report 5000-4 does not count subsequent TDI tax periods added to an existing TDI as a new
receipt but does correctly count them in the ending inventory.
5
  The closures shown in Figures 13 and 14 do not include the TDIs shelved or surveyed, which are shown in
Figure 12.
                                                                                                        Page 31
                         Trends in Compliance Activities Through Fiscal Year 2013




                     Figure 15: Number of TDI Tax Periods Closed by Collection
                         Functions With Receipt of a Delinquent Tax Return




               Source: TIGTA analysis of Collection Activity Report 5000-4. CSCO = Compliance
               Services Collection Operations.



                  Figure 16: Gap Between TDA Tax Period Receipts and Closures,
                       Including TDA Closures As a Percentage of Receipts 6




             Source: TIGTA analysis of Collection Activity Report 5000-2.


6
    The closures shown in Figure 16 do not include the TDAs shelved, which are shown in Figure 12.
                                                                                                     Page 32
               Trends in Compliance Activities Through Fiscal Year 2013




    Figure 17: Number of Taxpayers and Amount Owed in Queue Inventory




Source: TIGTA analysis of Collection Activity Report 5000-2.



                  Figure 18: Number of TDA Tax Periods Closed
                by Collection Functions, Excluding Shelved Accounts




 Source: TIGTA analysis of Collection Activity Report 5000-2. CSCO = Compliance Services
 Collection Operations.

                                                                                           Page 33
            Trends in Compliance Activities Through Fiscal Year 2013




                Figure 19: Number of TDA Tax Periods Closed
                  With Full Payment by Collection Functions




Source: TIGTA analysis of Collection Activity Report 5000-2. CSCO = Compliance Services
Collection Operations.



                        Figure 20: Number of NFTLs Filed
                             by the Field and the ACS




  Source: TIGTA analysis of Collection Activity Report 5000-23 and 5000-25.

                                                                                          Page 34
                  Trends in Compliance Activities Through Fiscal Year 2013




                                  Figure 21: Number of Levies
                                Issued by the Field and the ACS




Source: TIGTA analysis of Collection Activity Report 5000-23 and 5000-24.



                                 Figure 22: Number of Seizures




  Source: TIGTA analysis of Collection Activity Report 5000-23 and 5000-24.




                                                                              Page 35
              Trends in Compliance Activities Through Fiscal Year 2013




Figure 23: Amounts of Unpaid Assessments Entering Installment Agreements
             and Collected Through Installment Agreements




Source: Collection Activity Report 5000-6.



        Figure 24: Number and Value of Accepted Offers in Compromise




   Source: Collection Activity Report 5000-108.



                                                                       Page 36
               Trends in Compliance Activities Through Fiscal Year 2013




          Figure 25: Number of Examination Function Staff Conducting
           Examinations of Tax Returns at the End of Each Fiscal Year




        Source: TIGTA analysis of Examination Table 37.



                    Figure 26: Percentage Change From FY 2009
                       of All Tax Returns Filed and Examined




Source: TIGTA analysis of the IRS Data Book.



                                                                        Page 37
                         Trends in Compliance Activities Through Fiscal Year 2013




                  Figure 27: Revenue Agent Results on Forms 1040, U.S. Individual
                       Income Tax Return, Percentage Change From FY 2009 7




            Source: TIGTA analysis of Examination Table 37.



                        Figure 28: Revenue Agent Results on Corporate Income
                            Tax Returns, Percentage Change From FY 2009




            Source: TIGTA analysis of Examination Table 37.



7
    Figures 27 through 31 do not include results from Coordinated Industry Cases or training returns.
                                                                                                        Page 38
                      Trends in Compliance Activities Through Fiscal Year 2013




                        Figure 29: Revenue Agent Results on Other Types 8
                        of Tax Returns, Percentage Change From FY 2009




        Source: TIGTA analysis of Examination Table 37.



                           Figure 30: Tax Compliance Officer Results on
                           Forms 1040, Percentage Change From FY 2009




          Source: TIGTA analysis of Examination Table 37.

8
 Other types of tax returns include estate, gift, employment, Form 1042, Annual Withholding Tax Return for U.S.
Source Income of Foreign Persons, Form 1120-F, U.S. Income Tax Return of a Foreign Corporation, and excise.
                                                                                                        Page 39
              Trends in Compliance Activities Through Fiscal Year 2013




             Figure 31: Revenue Agent and Tax Compliance Officer
               No-Change Rates for Various Types of Tax Returns




Source: TIGTA analysis of Examination Table 37.



                   Figure 32: Number of Forms 1040 Examined
                    Face-to-Face or Through Correspondence




Source: Analysis of Examination Closed Case Database.

                                                                   Page 40
                         Trends in Compliance Activities Through Fiscal Year 2013




  Figure 33: Numbers and Percentages of Individual and Business Tax Returns Examined

                                                                Fiscal Year

                                           2009       2010         2011          2012       2013

         Individual Returns

      Individuals (Forms 1040)          1,425,888   1,581,394   1,564,690     1,481,966   1,404,931
              Coverage Rate               1.03%      1.11%        1.11%        1.03%       0.96%

         Business Returns

     Corporations < $10 Million           18,298     19,127      19,697       21,164      17,604
              Coverage Rate               0.85%      0.94%       1.02%        1.12%        0.95%
      Corporations $10 Million
                                           9,536     10,207      10,459       10,752       9,876
           and Greater
              Coverage Rate               14.55%    16.58%       17.64%       17.78%      15.84%
   S Corporations (Forms 1120S)           17,455     16,327      18,519       21,658      18,670
              Coverage Rate               0.40%      0.37%       0.42%        0.48%        0.42%
             Partnerships                 12,855     12,406      13,770       16,691      14,870
             Coverage Rate                0.38%      0.36%       0.40%        0.47%        0.42%
              Fiduciaries                  5,259     5,298        2,909        5,070       4,501
             Coverage Rate                0.17%      0.17%       0.10%        0.17%        0.15%
             Employment                   64,021     63,937      66,234       66,997      60,801
             Coverage Rate                0.21%      0.21%       0.22%        0.23%        0.20%
                Excise                    17,267     18,249      19,571       22,014      16,509
             Coverage Rate                1.85%      2.33%       2.40%        3.26%        1.61%
                Estates                    4,468     4,288        4,195        3,762       3,250
             Coverage Rate                9.26%     10.12%       18.23%       29.90%      11.58%
                  Gift                     1,569     1,777        2,623        3,164       2,775
             Coverage Rate                0.61%      0.74%       1.16%        1.42%        1.07%
Source: TIGTA analysis of the IRS Data Book.




                                                                                            Page 41
              Trends in Compliance Activities Through Fiscal Year 2013




                   Figure 34: Percentage Change From FY 2009
                        of Forms 1040 Filed and Examined




   Source: TIGTA analysis of the IRS Data Book.



              Figure 35: Number of Forms 1040 Filed and Examined




Source: TIGTA analysis of the IRS Data Book.




                                                                   Page 42
                     Trends in Compliance Activities Through Fiscal Year 2013




                       Figure 36: Percentage Change From FY 2009 of
                      Corporate Income Tax Returns Filed and Examined9




          Source: TIGTA analysis of the IRS Data Book.



                  Figure 37: Percentage of Corporate Income Tax Returns
                Examined – Corporations With Assets of Less Than $10 Million




       Source: TIGTA analysis of the IRS Data Book.


9
 Excludes Form 1120S, U.S. Income Tax Return for an S Corporation, Form 1120-F, and Form 1120-C, U.S.
Income Tax Return for Cooperative Associations.
                                                                                                  Page 43
              Trends in Compliance Activities Through Fiscal Year 2013




          Figure 38: Percentage of Corporate Income Tax Returns
       Examined – Corporations With Assets of $10 Million and Greater




Source: TIGTA analysis of the IRS Data Book.



                Figure 39: Number of Tax Returns Filed and
         Examined – Corporations With Assets of Less Than $10 Million




Source: TIGTA analysis of the IRS Data Book.


                                                                        Page 44
              Trends in Compliance Activities Through Fiscal Year 2013




                Figure 40: Number of Tax Returns Filed and
        Examined – Corporations With Assets of $10 Million and Greater




 Source: TIGTA analysis of the IRS Data Book.



                   Figure 41: Percentage Change From FY 2009
                       of Forms 1120S Filed and Examined




Source: TIGTA analysis of the IRS Data Book.



                                                                         Page 45
              Trends in Compliance Activities Through Fiscal Year 2013




             Figure 42: Number of Forms 1120S Filed and Examined




Source: IRS Data Book.



     Figure 43: Number of Tax Returns Filed and Examined – Partnerships




 Source: IRS Data Book.




                                                                          Page 46
                Trends in Compliance Activities Through Fiscal Year 2013




        Figure 44: Number of Tax Returns Filed and Examined – Fiduciaries




Source: IRS Data Book.



    Figure 45: Number of Tax Returns Filed and Examined – Employment Tax




    Source: IRS Data Book.




                                                                            Page 47
             Trends in Compliance Activities Through Fiscal Year 2013




     Figure 46: Number of Tax Returns Filed and Examined – Excise Tax




 Source: IRS Data Book.



       Figure 47: Number of Tax Returns Filed and Examined – Estates




Source: IRS Data Book.




                                                                        Page 48
                       Trends in Compliance Activities Through Fiscal Year 2013




               Figure 48: Number of Tax Returns Filed and Examined – Gift Tax




           Source: IRS Data Book.



              Figure 49: Number of Other Compliance Contacts on Forms 1040 10




            Source: IRS Data Book. ASFR = Automated Substitute for Return.


10
  The spike in FY 2009 is at least partially due to eligible taxpayers whose circumstances changed and who may
have claimed a recovery rebate credit to receive some or the entire unpaid portion of an economic stimulus payment.
The FY 2009 data include cases for which the rebate recovery credit was not claimed on tax returns, but the IRS
computed the credit for eligible taxpayers. In FY 2010, the Making Work Pay Tax Credit was a refundable tax
credit based on earned income. The FY 2010 data include cases for which the Making Work Pay Tax Credit was
not initially claimed on tax returns, but the IRS subsequently computed the credit for eligible taxpayers.
                                                                                                         Page 49
                Trends in Compliance Activities Through Fiscal Year 2013




        Figure 50: Other Compliance Contacts – Forms 1040 Coverage Rate

                                                       Fiscal Year

                                2009           2010       2011         2012        2013

       Math Error           12,049,948     8,445,374    4,998,266    2,042,458   1,957,031

      Coverage Rate            7.81%           5.86%     3.54%        1.42%       1.34%

      Automated
                             3,621,000     4,336,000    4,703,000    4,525,000   4,116,000
     Underreporter

      Coverage Rate            2.35%           3.01%     3.33%        3.15%       2.81%

      Automated
                             1,385,000     1,175,000    1,395,000    803,000     589,000
  Substitute for Return

      Coverage Rate            0.90%           0.82%     0.99%        0.56%       0.40%

Source: TIGTA analysis of the IRS Data Book.




                                                                                          Page 50
                  Trends in Compliance Activities Through Fiscal Year 2013




                                                                           Appendix V

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

TIGTA, Ref. No. 2000-30-075, Management Advisory Report: Evaluation of Reduction in the
Internal Revenue Service’s Compliance Activities (May 2000).
TIGTA, Ref. No. 2001-30-175, Management Advisory Report: Tax Return Filing and
Examination Statistics (Sept. 2001).
TIGTA, Ref. No. 2002-30-184, Management Advisory Report: Analysis of Trends in
Compliance Activities Through Fiscal Year 2001 (Sept. 2002).
TIGTA, Ref. No. 2003-30-078, Trends in Compliance Activities Through Fiscal Year 2002
(Mar. 2003).
TIGTA, Ref. No. 2004-30-083, Trends in Compliance Activities Through Fiscal Year 2003
(Apr. 2004).
TIGTA, Ref. No. 2005-30-055, Trends in Compliance Activities Through Fiscal Year 2004
(Mar. 2005).
TIGTA, Ref. No. 2006-30-055, Trends in Compliance Activities Through Fiscal Year 2005
(Mar. 2006).
TIGTA, Ref. No. 2007-30-056, Trends in Compliance Activities Through Fiscal Year 2006
(Mar. 2007).
TIGTA, Ref. No. 2008-30-095, Trends in Compliance Activities Through Fiscal Year 2007
(Apr. 2008).
TIGTA, Ref. No. 2009-30-082, Trends in Compliance Activities Through Fiscal Year 2008
(Jun. 2009).
TIGTA, Ref. No. 2010-30-066, Trends in Compliance Activities Through Fiscal Year 2009
(Jun. 2010).
TIGTA, Ref. No. 2011-30-071, Trends in Compliance Activities Through Fiscal Year 2010
(Jul. 2011).
TIGTA, Ref. No. 2013-30-078, Trends in Compliance Activities Through Fiscal Year 2012
(Aug. 2013).



                                                                                   Page 51
                   Trends in Compliance Activities Through Fiscal Year 2013




                                                                               Appendix VI

                              Glossary of Terms

           Term                                          Definition

Area Office                   A geographic organizational level used by IRS business units
                              and offices to help their specific types of taxpayers understand
                              and comply with tax laws and issues.

Automated Collection          A telephone contact system through which telephone assistors
System                        collect unpaid taxes and secure tax returns from delinquent
                              taxpayers who have not complied with previous notices.

Automated Substitute for      A system designed to assess taxes on wage earners who fail to
Return System                 file tax returns. It analyzes information submitted to the IRS and
                              historical tax return information.

Automated Underreporter       The Automated Underreporter Program matches items reported
                              on an individual’s income tax return to information supplied to
                              the IRS from outside sources (e.g., employers, banks, credit
                              unions) to determine if the taxpayer’s tax return reflected the
                              correct amounts, ensuring the tax amount is correct.

Campus                        The data processing arm of the IRS. The campuses process
                              paper and electronic submissions, correct errors, and forward
                              data to the Computing Centers for analysis and posting to
                              taxpayer accounts.

Collection Activity Reports   A group of reports providing management information to Field
                              and Headquarters Collection officials. The reports reflect
                              activity associated with TDA and TDI issuances and installment
                              agreements including issuances, dispositions, and inventories as
                              well as Collection-related payments.

Collection Queue              An automated holding file for unassigned inventory of
                              delinquent cases for which revenue officers are unable to be
                              immediately assigned for contact due to limited resources.



                                                                                        Page 52
                  Trends in Compliance Activities Through Fiscal Year 2013




           Term                                         Definition

Compliance Services         An IRS function that mails the balance due and return
Collection Operations       delinquency notices to taxpayers and analyzes and responds to
                            taxpayer correspondence. This function was formerly known as
                            the Service Center Collection Branch.

Computing Centers           IRS facilities that support tax processing and information
                            management through a data processing and telecommunications
                            infrastructure.

Cooperative Associations    An entity that is organized and operated on a cooperative basis,
                            allocating net profits to patrons on the basis of the business done
                            with or for such patrons.

Coordinated Industry Case   An Examination function classification used for the largest and
                            most complex corporations.

Corporate Income Tax        Form 1120, U.S. Corporation Income Tax Return. It is used by
Return                      corporations to report the corporate income tax.

Direct Debit Installment    A monthly payment plan, to pay off delinquent amounts, in
Agreement                   which funds are automatically debited from a taxpayer’s
                            checking account for the agreed-upon installment amount.

Dollar Yield per Hour       The amount of tax adjustments on tax returns divided by the
                            number of hours spent examining those returns.

Employment Tax Returns      Various Form 94X return series (primarily Form 940,
                            Employer’s Annual Federal Unemployment (FUTA) Tax Return,
                            and Form 941, Employer’s QUARTERLY Federal Tax Return)
                            filed by businesses to report things such as employer’s Federal
                            unemployment taxes and Federal taxes withheld.

Enforcement Revenue         Any tax, penalty, or interest received from a taxpayer as a result
                            of an IRS enforcement action (usually an examination or a
                            collection action).

Estate Tax Return           Form 706, United States Estate (and Generation-Skipping
                            Transfer) Tax Return, is filed for estates of certain deceased
                            persons.


                                                                                       Page 53
                   Trends in Compliance Activities Through Fiscal Year 2013




           Term                                           Definition

Examination (Face-to-Face) Field examinations of individuals, partnerships, or corporations
                           that occur either at the taxpayer’s place of business or through
                           interviews at an IRS office.

Excise Tax Return             Form 720, Quarterly Federal Excise Tax Return, is used to
                              report and pay certain taxes, such as those on transportation and
                              fuel.

Fiduciary Income Tax          Income tax returns filed for estates and trusts.
Returns

Field Collection              The unit in the Area Offices consisting of revenue officers who
                              handle face-to-face contacts with taxpayers to collect delinquent
                              accounts or secure unfiled returns.

Field Office                  Examination Area Offices consisting of revenue agents who
                              perform examinations of individuals, partnerships, and
                              corporations.

Fiscal Year                   Any yearly accounting period, regardless of its relationship to a
                              calendar year. The Federal Government’s fiscal year begins on
                              October 1 and ends on September 30.

Full-Time Equivalents         A figure calculated from the number of full-time and part-time
                              employees in an organization that represents these workers as a
                              comparable number of full-time employees.

Gift Tax Return               Form 709, United States Gift (and Generation-Skipping
                              Transfer) Tax Return, is used to report transfers subject to the
                              Federal gift taxes and to calculate the taxes due on those
                              transfers.

Gross Accounts Receivable     Includes all unpaid tax, with accrued penalties and interest, on
                              taxpayers’ delinquent accounts.

Individual Income Tax         Form 1040, U.S. Individual Income Tax Return, series are
Returns                       annual income tax returns filed by citizens or residents of the
                              United States.



                                                                                         Page 54
                 Trends in Compliance Activities Through Fiscal Year 2013




          Term                                           Definition

Installment Agreement        Arrangement in which a taxpayer agrees to pay his or her tax
                             liability over time.

IRS Data Book                Provides information on returns filed and taxes collected,
                             enforcement, taxpayer assistance, the IRS budget and workforce,
                             and other selected activities.

IRS Oversight Board          A nine-member independent body charged to oversee the IRS in
                             its administration, management, conduct, direction, and
                             supervision of the execution and application of Internal Revenue
                             laws and to provide experience, independence, and stability to
                             the IRS so it may move forward in a cogent, focused direction.

Levy                         A method used by the IRS to collect outstanding taxes from
                             sources such as bank accounts and wages.

Lien                         An encumbrance on property or rights to property as security for
                             outstanding taxes.

Math Error                   A program in which the IRS contacts taxpayers through the mail
                             or by telephone when it identifies mathematical errors or
                             mismatches of taxpayer information that would result in tax
                             changes.

Module                       Refers to one specific tax return filed by the taxpayer for one
                             specific tax period (year or quarter) and type of tax.

No-Change Rate               Percentage of examinations for which the examiner closed the
                             case with no recommended tax change.

Notice of Federal Tax Lien   A notice filed with the appropriate local government office,
                             protecting the Federal Government’s interest in the taxpayer’s
                             assets by providing public notice of the amount of unpaid tax.

Offer in Compromise          An agreement between a taxpayer and the Government that
                             settles a tax liability for payment of less than the full amount
                             owed.




                                                                                         Page 55
                  Trends in Compliance Activities Through Fiscal Year 2013




          Term                                          Definition

Overhead Staff              Support staff performing indirect duties within the function, such
                            as automation support, technical support, and quality review.

Partnership Return          Form 1065, U.S. Return of Partnership Income, is used to report
                            the income and expenses of domestic partnerships and the share
                            distributed to each partner.

Revenue Agent               An employee in the Examination function who conducts
                            face-to-face examinations of more complex tax returns, such as
                            businesses, partnerships, corporations, and specialty taxes
                            (e.g., excise tax returns).

Revenue Officer             Employees in the Field who attempt to contact taxpayers and
                            resolve collection matters that have not been resolved through
                            notices sent by the IRS campuses (formerly known as service
                            centers) or the ACS.

S Corporation Tax Return    Form 1120S, U.S. Income Tax Return for an S Corporation, is
                            filed by qualifying small business corporations and includes
                            amounts distributed to shareholders.

Seizure                     The taking of a taxpayer’s property to satisfy his or her
                            outstanding tax liability.

Sequestration               Fiscal policy procedure encompassing an automatic form of
                            spending cut equal to the difference between the cap set in the
                            budget resolution and the amount actually appropriated.

Shelved or Surveyed Cases   Delinquent unpaid accounts or investigations of unfiled tax
                            returns that have been taken out of the Collection function
                            inventory because they are of lower priority than other available
                            inventory.

Substitute for              Tax returns prepared by the IRS, based on Internal Revenue
Return/6020(b) Return       Code provisions, when taxpayers appear to be liable for taxes
                            but have not voluntarily filed the returns.




                                                                                        Page 56
                    Trends in Compliance Activities Through Fiscal Year 2013




             Term                                        Definition

Tax Compliance               An employee in the Examination function who primarily
Officer/Tax Auditor          conducts examinations of individual taxpayers through
                             interviews at IRS field offices. The position title was changed in
                             2002 from tax auditor to tax compliance officer.

Tax Examiner                 In the context of this report, an employee located in a field office
                             who conducts examinations through correspondence. However,
                             the tax examiner position is also used for many other types of
                             positions located in various IRS offices.

Tax Gap                      The estimated difference between the amount of tax that
                             taxpayers should pay and the amount that is paid voluntarily and
                             on time.

Tax Period                   Refers to each tax return filed by the taxpayer for a specific
                             period (year or quarter) during a calendar year for each type of
                             tax.

Tax Year                     A 12-month accounting period for keeping records on income
                             and expenses used as the basis for calculating the annual taxes
                             due. For most individual taxpayers, the tax year is synonymous
                             with the calendar year.

Taxpayer Delinquency         An unfiled tax return(s) for a taxpayer. One TDI is issued for
Investigation                each delinquent tax period for a taxpayer.

Taxpayer Delinquent          A balance due account of a taxpayer. One TDA exists for all
Account                      delinquent tax periods for a taxpayer.

Trust Fund Recovery          When a company does not pay the taxes it withholds from
Penalty                      employee wages, such as Social Security or individual income
                             tax, the IRS has the authority to assess all responsible corporate
                             officers individually for the taxes withheld via the Trust Fund
                             Recovery Penalty.




                                                                                         Page 57
